("'1
.~>,:~
              DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                        Office of Inspector General
                                                                                        Offices of Audit Services



                                                                                       Region VII
                                                                                       601 East 12th Street
                                                                                       Room 284A
                                        FEB 2 7 2009                                   Kansas City, Missouri 64106




         Report Number: A-07-07-00244

         Mr. Emery Hill
         Manager, External Audit Coordination
         CareFirst of Maryland, Incorporated

         10455 Mill Run Circle

         Owings Mills, Maryland 21117

         Dear Mr. Hill:

         Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
         General (OIG), final report entitled "Review of Pension Costs Claimed for Medicare
         Reimbursement by CareFirst of Maryland, Incorporated, for Fiscal Years 2002 Through 2005."
         We will forward a copy of this report to the HHS action official noted on the following page for
         review and any action deemed necessary.

         The HHS action official will make final determination as to actions taken on all matters reported.
         We request that you respond to this official within 30 days from the date of this letter. Your
         response should present any comments or additional information that you believe may have a
         bearing on the final determination.

         Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
         available to the public to the extent that information in the report is not subject to exemptions in
         the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

         If you have any questions or comments about this report, please do not hesitate to call me at
         (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21 or
         through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-07-00244
         in all correspondence.




                                                        Patrick . Cogley
                                                        Regional Inspector General
                                                         for Audit Services


         Enclosure
Page 2 – Mr. Emery Hill


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF PENSION COSTS
   CLAIMED FOR MEDICARE
REIMBURSEMENT BY CAREFIRST
OF MARYLAND, INCORPORATED
   FOR FISCAL YEARS 2002
       THROUGH 2005




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-07-07-00244
                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

CareFirst of Maryland, Incorporated (CareFirst), administered Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services until the
contractual relationship was terminated September 30, 2005.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that CareFirst claimed for
Medicare reimbursement for fiscal years (FY) 2002 through 2005.

SUMMARY OF FINDING

CareFirst did not claim some allowable Medicare pension costs for FYs 2002 through 2005.
CareFirst claimed $137,604 of pension costs for Medicare reimbursement; however, allowable
Medicare pension costs were $146,547. CareFirst did not claim $8,943 of allowable pension
costs for FYs 2002 through 2005 because it did not claim pension costs in accordance with the
Medicare contracts. Instead, CareFirst based its claim on a pension expense developed for
financial reporting purposes.

RECOMMENDATION

We recommend that CareFirst revise its Final Administrative Cost Proposals for FYs 2002
through 2005 to increase claimed pension costs by $8,943.

AUDITEE COMMENTS

In written comments on our draft report, CareFirst disagreed with our original recommendation
to reduce claimed pension costs by $18,543. Instead, CareFirst stated that its claimed pension
costs should be increased by $8,943.

CareFirst’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CareFirst’s comments, we revised our calculations and the related
recommendation to adjust claimed pension costs.


                                                i
                                       INTRODUCTION

BACKGROUND

CareFirst

CareFirst of Maryland, Incorporated (CareFirst), administered Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated September 30, 2005.

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413; and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

Federal Requirements

The Medicare contracts address the determination and allocation of pension costs. Appendix B,
section XVI, of the contracts states: “The calculation of and accounting for pension costs
charged to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.




                                                1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that CareFirst claimed for
Medicare reimbursement for FYs 2002 through 2005.

Scope

We reviewed pension costs that CareFirst claimed for Medicare reimbursement on its Final
Administrative Cost Proposals (FACP) for FYs 2002 through 2005. Achieving the objective did
not require that we review CareFirst’s overall internal control structure. However, we did review
the internal controls related to the pension costs claimed for Medicare reimbursement to ensure
that the pension costs were allocable in accordance with the CAS and allowable in accordance
with the FAR.

We performed fieldwork at CareFirst in Baltimore, Maryland, during October 2005 and May
2007.

Methodology

In performing our review, we used information that CareFirst’s actuarial consulting firm
provided. We verified CareFirst’s actuarial consulting firm’s calculation of CAS pension costs
for the total company and the Medicare segment. We also verified the extent to which CareFirst
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. The calculations were based on separately computed CAS pension costs for
the Medicare segment and total company CAS pension costs. The CMS Office of the Actuary
reviewed the allocable CAS pension costs based on CareFirst’s historical practices and on the
results of our segmentation review, “Review of the Qualified Pension Plan at CareFirst of
Maryland, Incorporated, a Terminated Medicare Contractor, for the Period January 1, 2002, to
December 31, 2005” (A-07-07-00243).

The information provided by CareFirst’s actuarial consulting firm included assets, liabilities,
normal costs, contributions, benefit payments, investment earnings, and administrative expenses.
We examined CareFirst’s accounting records, pension plan documents, annual actuarial
valuation reports, and Department of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                2
                           FINDING AND RECOMMENDATION

ALLOWABLE PENSION COSTS NOT CLAIMED

CareFirst did not claim some allowable Medicare pension costs for FYs 2002 through 2005.
CareFirst claimed $137,604 of pension costs for Medicare reimbursement; however, allowable
Medicare pension costs were $146,547. CareFirst did not claim $8,943 of allowable pension
costs for FYs 2002 through 2005 because it did not claim pension costs in accordance with the
Medicare contracts. Instead, CareFirst based its claim on a pension expense developed for
financial reporting purposes.

On its FACPs for FYs 2002 through 2005, CareFirst claimed pension costs of $137,604 for
Medicare reimbursement. CareFirst based its claim on a pension expense developed for financial
reporting purposes. However, this differed from the allowable CAS pension costs. In its written
comments on our draft report, CareFirst’s determined the allowable pension costs based on
separately computed CAS pension costs for the Medicare segment and indirect Medicare
operations. We accepted CareFirst’s determination

Accordingly, we compared allowable CAS pension costs with the pension costs claimed on
CareFirst’s FACPs, as shown in the table below.

                                 Pension Cost Claimed Variance
                   Fiscal Year      Per Audit Per CareFirst Difference
                      2002             $39,036       $34,374     $4,662
                      2003              38,598        38,517        $81
                      2004              33,862        31,699     $2,163
                      2005              35,051        33,014     $2,037
                      Total           $146,547      $137,604     $8,943

The allowable CAS pension costs totaled $146,547. Thus, CareFirst did not claim $8,943 of
allowable pension costs.

RECOMMENDATION

We recommend that CareFirst revise its FACPs for FYs 2002 through 2005 to increase claimed
pension costs by $8,943.

AUDITEE COMMENTS

In written comments on our draft report, CareFirst disagreed with our original recommendation
to reduce claimed pension costs by $18,543. Instead, CareFirst stated that its claimed pension
costs should be increased by $8,943.

CareFirst stated that there were “. . . several differences between our pension cost figures as
reflected in our actuarial reports and those figures used by the OIG [Office of Inspector General],



                                                3
including the calculation of: the pension cost amount included in the 2005 FACP . . .” In
addition, CareFirst said that “. . . it appears that . . . the OIG limited the CAS funding target to
the prepayment credit that the OIG calculated.”

CareFirst’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CareFirst’s comments, we revised our calculations and the related
recommendation to adjust claimed pension costs.

With respect to the differing cost computations, CareFirst’s written comments were incorrect as
to the reason why our original cost computations differed from those computed by CareFirst’s
actuarial consulting firm. That is, contrary to CareFirst’s statement, we did not limit the CAS
funding target to the prepayment credit that we had calculated. In actuality, we based our
original pension cost calculations associated with indirect Medicare operations on the Plan that
was formed through the merger, effective December 31, 2002, of the CareFirst of Maryland, Inc.,
Retirement Plan and the Group Hospitalization and Medical Services, Inc., Pension Trust Plan. 1
However, CareFirst’s Medicare indirect pension costs were based on CareFirst of Maryland, Inc.,
being treated as a separate segment for computing CAS pension costs. After considering
CareFirst’s written comments and supporting information, we agreed with this approach and
accepted CareFirst’s computation of indirect pension costs.

With respect to the pension cost claimed on the FY 2005 FACP, the amount shown in our draft
report was previously verified by CareFirst personnel. However, as part of its response,
CareFirst provided documentation regarding an adjustment to the amount of pension cost
claimed.




1
    The result of this merger was called the CareFirst, Inc., Retirement Plan.


                                                              4
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
